DOE/IG-0506
          cc:




  INSPECTION                       INSPECTION OF
    REPORT                      SELECTED ASPECTS OF THE
                               OFFICE OF RIVER PROTECTION
                                  PERFORMANCE-BASED
                                   INCENTIVE PROGRAM




                                        JUNE 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585


                                            June 14, 2001

MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman /s/
                      Inspector General

SUBJECT:              INFORMATION: Report on “Inspection of Selected Aspects of the
                      Office of River Protection Performance-Based Incentive Program”

BACKGROUND

The Office of River Protection (ORP), which reports to the Office of Environmental Management, is
responsible for remediation of the radioactive waste stored in tanks at the Hanford Site in the State
of Washington. For Fiscal Year (FY) 2000, ORP established 26 performance-based contract
incentives (PBCIs) that provided its management and operating contractor the opportunity to earn
incentive fees totaling about $19.4 million. Department guidance states that it is through the use of
performance-based contracting concepts that improved contractor performance and greater
accountability will be realized, as well as more efficient deployment of contract management and
oversight resources.

The purpose of this inspection was to determine if the FY 2000 PBCIs established by ORP
effectively implemented the Department of Energy’s contract reform goals of incentivizing
enhanced contractor performance and assuring greater accountability.

RESULTS OF INSPECTION

We concluded, based on our review of 23 of 26 PBCIs established by ORP for FY 2000, that actions
are required by ORP officials to improve the administration and effectiveness of their PBCI
program. Specifically:


       •   PBCIs awarded by ORP did not always challenge the contractor to achieve higher levels
           of performance and did not always focus on high priority tasks, and

       •   internal control weaknesses adversely impacted the ability of ORP management officials
           to effectively administer their PBCI program. These weaknesses included a lack of
           formal quality acceptance criteria for use by ORP officials to determine whether
           contractor work products qualified the contractor for associated incentive fees, as well as
           a lack of required justifications for establishing certain incentive fees.
MANAGEMENT REACTION

Management generally concurred with our recommendations and stated that it will take several
actions to implement them. By May 31, 2001, ORP was to have reassigned a member of the ORP
contracting staff half-time to have single point accountability of PBCI process management to
ensure that new incentives or changes to current incentives have followed required internal review
and documentation processes, and that full validation and compliance with acceptance criteria is
documented prior to all PBCI incentive payments. ORP stated that by June 30, 2001, it will
consolidate current local fee development and administration policy and procedures into one
cohesive policy and procedure requirements document. Also, by July 31, 2001, and annually
thereafter, ORP will perform a Self-Assessment Review of FY 2001 through FY 2006 incentives to
ensure that all incentive documents are in place, each incentive has a quality criterion for acceptance
commensurate with the characteristics of the incentive, and that payment for performance is fully
validated and documented in the file. We view these as positive steps that, if fully executed, will
address the issues raised in our report.

This report concerning the ORP is the latest in a series of Office of Inspector General reviews of
the implementation of contractor performance incentive programs at various Department
facilities. Although we have found some variations in the nature of the problems identified at the
sites included in our reviews, a pattern is emerging which suggests that new and better
programmatic safeguards and operating processes, as well as more intensive management
involvement, are needed if the Department’s efforts to incentivize contractor performance are to
be successful.

Attachment

cc: Deputy Secretary
    Under Secretary
    Assistant Secretary for Environmental Management
    Director, Office of Procurement and Assistance Management
    Manager, Office of River Protection
INSPECTION OF SELECTED ASPECTS OF THE OFFICE OF
RIVER PROTECTION PERFORMANCE-BASED INCENTIVE
PROGRAM

TABLE OF
CONTENTS


               OVERVIEW

               Introduction and Objective………………………………… 1

               Observations and Conclusions……………………………            2

               Background…………………………………………………. 2

               DETAILS OF FINDINGS………………………………….. 3

               Incentives Did Not Always Follow
                Established Guidelines…………………………………..             3

               Internal Control Weaknesses Identified
                 In Incentive Program……………………………………..             6

               RECOMMENDATIONS…………………………………… 10

               MANAGEMENT COMMENTS…………………………… 11

               INSPECTOR COMMENTS……………………………….. 12

               Appendices

               A. Scope and Methodology……………………………… 13

               B. Related Office of Inspector General
                     and General Accounting Office Reviews……….. 14

               C. Performance-Based Contract Incentives
                     Lacking Quality Acceptance Requirements…….   16

               D. Required Information Not Entered on
                    Performance-Based Contract
                    Incentive Basis Forms…………………………….             17
Overview
INTRODUCTION AND   In February 1994, the Contract Reform Team established by the
OBJECTIVE          Secretary of Energy to review the Department of Energy’s (DOE)
                   contracting practices recommended that the Department move
                   away from traditional approaches of contracting for services and
                   the management and operation of its facilities and adopt
                   approaches that rely upon performance-based contracting
                   principles. Fundamental components of the new approach
                   included more definitive statements of work, specific performance
                   objectives and measures, and linkage to appropriate performance
                   incentives. Performance fees were introduced to link performance
                   to financial reward instead of using cost-plus fixed fees that simply
                   compensated work effort. Department guidance states that it is
                   through the use of performance-based contracting concepts that
                   improved contractor performance and greater accountability will
                   be realized, as well as more efficient deployment of contract
                   management and oversight resources.

                   The Office of Inspector General (OIG) and the General
                   Accounting Office (GAO) have issued reports that have raised
                   concerns about the manner in which the Department’s contract
                   reform efforts have been implemented at various DOE sites. The
                   OIG reports identified examples of performance-based incentive
                   fees that were paid for work not completed; that did not motivate
                   the contractor to achieve higher levels of performance; and that
                   paid for work that had been completed prior to formal
                   establishment and approval of the incentive fee. A listing of GAO
                   and OIG reports concerning the Department’s contract reform
                   activities is at Appendix B.

                   One Department site where performance-based contracting
                   concepts have been implemented is the Hanford Site in the State of
                   Washington. Responsibility for remediating the radioactive waste
                   stored in tanks at the Hanford Site was transferred from the
                   Richland Operations Office (Richland) to the Office of River
                   Protection (ORP), which reports to the DOE Office of
                   Environmental Management. For Fiscal Year (FY) 2000, ORP
                   established 26 performance-based contract incentives (PBCIs) that
                   provided its management and operating (M&O) contractor the
                   opportunity to earn incentive fees totaling about $19.4 million.

                   The purpose of this inspection was to determine if the FY 2000 PBCIs
                   established by ORP effectively implemented the Department’s
                   contract reform goals of incentivizing enhanced contractor
                   performance and assuring greater accountability.



Page 1                                Inspection of Selected Aspects of the Office
                                      of River Protection Performance-Based
                                      Incentive Program
OBSERVATIONS AND                       We concluded, based on our review of 23 of 26 PBCIs established
CONCLUSIONS                            by ORP for FY 2000, that actions are required by ORP officials to
                                       improve the administration and effectiveness of their PBCI program.
                                       We found that PBCIs awarded by ORP did not always challenge the
                                       contractor to achieve higher levels of performance and did not always
                                       focus on high priority tasks. We also found internal control
                                       weaknesses that adversely impacted the ability of ORP management
                                       officials to effectively administer their PBCI program. Specifically,
                                       we identified PBCIs that did not specify formal quality acceptance
                                       criteria to be used by the Department as a basis for determining
                                       whether the work product submitted by the contractor qualified the
                                       contractor for the incentive fees. We also identified PBCI basis
                                       documents that did not contain the required information that would
                                       provide a rationale for establishing the incentive fee for the PBCI.

                                       This inspection will assist the Department in meeting the
                                       requirements of the Government Performance and Results Act by
                                       documenting methods to improve the efficiency of federally
                                       funded programs.

BACKGROUND                             Responding to direction by Congress in the National Defense
                                       Authorization Act for FY 1999, the Department established ORP
                                       for the purpose of managing the retrieval, treatment and disposal of
                                       Hanford Site tank waste. Sixty percent by volume of the nation’s
                                       high-level radioactive waste is stored in aging, deteriorating tanks
                                       at the Hanford site. If not cleaned-up, this waste is potentially a
                                       threat to the Columbia River, as well as the Pacific Northwest.
                                       The current baseline cost of cleaning up the 177 underground
                                       storage tanks at the Hanford Site is estimated to be $54 billion.
                                       The baseline cost includes completing immobilization of the waste
                                       by 2028 and closing the tank farms by 2032.

                                       Following Department guidance, ORP established a performance-
                                       based, cost plus incentive fee contract with its M&O contractor,
                                       CH2M HILL Hanford Group, Inc (CHG). At the start of FY 2000,
                                       ORP officials estimated the cost of M&O contractor services to be
                                       $318 million, with $19.4 million1 available for performance-based
                                       incentive fees. At that time, CHG could earn the $19.4 million for
                                       completing 26 different projects within specified timeframes and
                                       costs.




1
    Included in the $318 million total cost.


Page 2                                                   Observations and Conclusions/Background
Details of Findings
                      In FY 1999, the DOE Office of Procurement and Assistance
                      Management provided a waiver to Richland, which allowed
                      Richland officials to establish PBCIs without obtaining approval of
                      Department headquarters procurement officials. The waiver was
                      granted because of the adequacy of Richland’s performance-based
                      incentive guidelines, which were jointly developed by Richland
                      and Department headquarters procurement officials. The waiver,
                      as well as the Richland PBCI guidelines entitled
                      “PERFORMANCE-BASED CONTRACT INCENTIVES,”
                      RLP 540.1A, dated March 27, 1998, also apply to ORP, which
                      assumed Richland’s responsibilities for the Hanford Site tank
                      waste remediation project. Accordingly, ORP officials were not
                      required to submit their FY 2000 PBCIs to Department
                      headquarters procurement officials for review and approval.

INCENTIVES DID NOT    We found that PBCIs awarded by ORP did not always challenge
ALWAYS FOLLOW         the contractor to achieve higher levels of performance and did not
ESTABLISHED           always focus on high priority tasks.
GUIDELINES
                      A desired outcome for performance incentives is to encourage the
                      contractor to work more effectively and efficiently. In June 1998,
                      the Department’s Office of Procurement and Assistance
                      Management issued a “Performance-Based Contracting Guide,”
                      which states that incentives should be used to, among other things,
                      motivate a contractor to obtain better performance. Richland
                      guidelines require each incentive fee amount to reflect “the
                      significance of the work, level of difficulty in accomplishing the
                      work, and risk to the contractor.” An objective of ORP’s
                      “Performance Fee Strategy” is to challenge the contractor by
                      raising the bar for performance. Additionally, Richland guidelines
                      specify that incentives should focus on high priority items.

                      We identified two PBCIs awarded by ORP, however, which did
                      not appear to meet the intent of these guidelines. One of the
                      PBCIs, which had incentives fees totaling over $2.5 million,
                      provided a fee to the M&O contractor for starting work on specific
                      project tasks after the scheduled start date established by the
                      project’s multi-year work plan (work plan). The other PBCI
                      provided an incentive fee for completion of a project that was not a
                      high priority, since completion of the project was not actually
                      required for several years.




Page 3                                                              Details of Findings
Incentives For Work                ORP established Performance Incentive 3.1.1. “Interim Tank
Initiated Behind                   Stabilization,” on November 16, 1999. This performance
Schedule                           incentive provided a total “standard”2 incentive fee of $1,000,000
                                   to the M&O contractor to initiate pumping and to reduce the
                                   volume of liquid in seven waste storage tanks. A revision to the
                                   PBCI on July 19, 2000, added about $8,000 to the standard
                                   incentive fee. That revision also deleted one of the seven tanks
                                   (Tank U-103) from the PBCI. 3 Part of the fee was to be paid when
                                   the contractor started pumping liquid from the tanks. Specifically,
                                   to earn about $258,000 of the standard incentive fee, the M&O
                                   contractor was to begin pumping liquid from three specified waste
                                   tanks by March 31, 2000. To earn approximately $387,000 more,
                                   the M&O contractor was to begin pumping liquid from the three
                                   remaining tanks by August 10, 2000. The incentive was revised on
                                   August 8, 2000, to allow the contractor until August 15, 2000, to
                                   initiate pumping on one of these tanks (Tank SX-105). To earn the
                                   remainder of the standard incentive fee, the contractor was to
                                   reduce the volume of liquid to 38 percent of the initial total volume
                                   by August 30, 2000. However, pursuant to the August 8, 2000,
                                   revision, the contractor was given until September 15, 2000, to
                                   make this volume reduction.

                                   A comparison of the dates in the PBCI with the dates in the work
                                   plan for initiating pumping activities for the tanks disclosed that
                                   most of the start dates in the PBCI were after the start dates
                                   established by the work plan. A comparison illustrating this issue
                                   is provided in TABLE 1.




2
    Standard fee is provided for work that is contained in the current FY baseline. If the contractor simply makes
    no change in the way work is done then standard fee is the earning target. Stretch fee could be earned for a
    productivity increase. Modest improvement was targeted to earn 33 percent of the stretch fee, while major
    improvement could earn 100 percent of the fee.
3
    We were told by an ORP engineer, who was associated with the administration of this incentive, that Tank U-103
    was deleted because the pumping initiative for the tank had begun prior to the finalization of the PBCI.



Page 4                                                                                    Details of Findings
         TABLE 1: WORK PLAN DATES VS. INCENTIVE DATES

                        Work Plan           Incentive          Schedule
         Tank            Date               Fee Date           Variance

         U-102            1/3/00              3/31/00          3 months
         U-105            11/15/99            3/31/00          4.5 months
         U-109            4/1/00              3/31/00          0 months
         A-101            5/13/00             8/10/00          3 months
         SX-105           6/27/00             8/15/00          1.5 months
         AX-101           8/10/00             8/10/00          0 months


         According to an ORP official, the PBCI had been established
         because these tanks are subject to the Tri-Party Agreement
         (Agreement) signed by DOE, the U.S. Environmental Protection
         Agency, and the State of Washington. He said that the
         performance incentive was intended to accelerate the removal of
         liquid from these tanks to meet the requirements of the Agreement.

         We discussed this finding with ORP officials on March 14, 2001.
         In written comments dated March 23, 2001, and May 11, 2001,
         ORP officials stated that they were aware that some of the PBCI
         completion dates were later than the baseline completion dates.
         They said that this situation arose when initiation dates for a group
         of tanks were kept in blocks similar to the Agreement milestones
         to simplify the PBCI and allow for potential efficiencies driven by
         other incentive requirements. They said the contractor completed
         several of the pumping initiatives ahead of the PBCI dates and
         ahead of the original baseline dates.

         Although we agree that meeting the dates established by the
         Agreement is important, we do not believe that providing
         incentives that reward the contractor for completing work after the
         dates established by the work plan motivates the contractor to
         achieve higher levels of performance. Our view that the PBCI did
         not challenge the contractor to work more effectively and
         efficiently was supported by the comments of ORP officials that
         the contractor had actually initiated pumping of several of the
         tanks ahead of the original baseline dates, as well as the revisions
         that were made to the PBCI to add additional funds and extend the
         performance period.




Page 5                                                  Details of Findings
Incentive Fee For                     ORP established Performance Incentive 3.2.1. “W-314 ‘A’
Work Not Required                     Complex,” on November 16, 1999. This performance incentive, in
Before 2007                           part, provides a “standard” incentive fee of $187,500 to the M&O
                                      contractor for completing the backfill of piping for Line 635 by
                                      September 30, 2000, which was the date established by the work
                                      plan. An additional (stretch) incentive fee of $250,000 was
                                      available to the contractor if the same pipeline was back-filled
                                      earlier, by July 18, 2000. If the contractor met the “stretch”
                                      incentive fee requirement, the pipeline would be back-filled about
                                      two and one half months earlier than the work plan completion
                                      date, and the contractor would receive a total fee of $437,500. 4

                                      According to an ORP official, when this PBCI was established in
                                      November 1999, the first planned use of the pipeline was in the
                                      year 2007. However, he could not explain why it was important to
                                      provide a performance incentive to accelerate completion of the
                                      pipeline so many years before it will be needed.

                                      We were unable to determine the rationale for the incentive fee
                                      amount from reviewing the basis document for the PBCI. The
                                      section on the PBCI basis document that should contain the
                                      rationale for the incentive fee amount was not completed.
                                      However, an ORP official who was familiar with the rationale for
                                      the PBCI told us that the task was incentivized to encourage the
                                      contractor to more efficiently utilize its resources, without specific
                                      regard to whether completion of the task at that time was necessary
                                      to the project’s critical path.

                                      The Richland guidelines state that PBCIs should focus on high
                                      priority items, and incentive amounts should reflect the
                                      significance of the tasks. While it is possible that completing the
                                      pipeline in FY 2000 might have been an efficient use of the
                                      contractor’s resources, we found no convincing evidence that
                                      completing the backfill of the pipeline was a high priority task.
                                      Based upon information from ORP officials regarding the planned
                                      use of the pipeline, providing the contractor an opportunity to earn
                                      an incentive fee for early completion of the backfill of the pipeline
                                      does not appear consistent with Richland guidelines for PBCIs.

INTERNAL CONTROL                      We also found internal control weaknesses that adversely
WEAKNESSES                            impacted ORP management’s ability to effectively administer their
IDENTIFIED IN                         PBCI program. Specifically, we identified PBCIs that did not
INCENTIVE PROGRAM                     specify the formal quality acceptance criteria to be used by the
                                      Department as a basis for determining whether the work product

4
    The contractor did not meet the stretch incentive to back-fill the pipeline by July 18, 2000. The contractor
    did meet the standard incentive by back-filling the pipeline by September 30, 2000.


Page 6                                                                                        Details of Findings
                      submitted by the contractor qualified the contractor for the incentive
                      fees. In addition, as illustrated in the discussion of the pipeline above,
                      we identified PBCI basis documents that did not contain the required
                      information that would provide a rationale for establishing the
                      incentive fees for the PBCIs.

Some Work Subject     We identified six PBCIs awarded by ORP that required the M&O
To Incentive Fees     contractor to only submit a plan or report on environmental
Lacked Quality        remediation or tank closure activities to qualify for an incentive
Acceptance Criteria   fee. However, these PBCIs, which contained incentive fees
                      totaling about $1,555,000, did not establish formal criteria to be
                      used by the Department to determine whether the quality of the
                      submitted plan or report was acceptable. These six PBCIs are
                      listed at Appendix C.

                      Richland guidance requires the performance criteria for each
                      candidate PBCI to include “the specific expectations and criteria to
                      be used in order to determine successful completion of the
                      incentive work.” In the absence of criteria that the Department
                      could use as a basis to accept or reject the written products
                      submitted by the M&O contractor on the basis of quality, the
                      contractor is presumably eligible to receive a fee by simply
                      submitting the plan or report by the date specified, as long as the
                      report meets the general criteria for content required by the PBCI.

                      We discussed this finding with ORP officials on March 14, 2001.
                      In a written response dated March 23, 2001, ORP officials stated
                      that one of the six PBCIs, Performance Incentive 1.1.2, had been
                      cancelled in September 2000. We were subsequently advised by
                      an ORP official that one of the reasons for the cancellation was
                      that the incentive lacked acceptance criteria.

                      Also, in written comments dated March 23, 2001, and May 11,
                      2001, ORP officials stated that the write-ups for each of the
                      remaining five PBCIs did include a description of the quality of the
                      product. One example they cited was Incentive 4.3.2S, “SST
                      Waste Retrieval of Tank C-104,” which tasked the M&O
                      contractor to produce a series of reports on how best to start
                      retrieving waste from the tank. According to ORP officials,
                      Section 4 of the PBCI included specific criteria to be included in
                      the required project plan such as “. . . will describe planning for
                      activities required to support the retrieval of Tank 241-C-104
                      including detailed logic diagrams, similar to Level 1 logics
                      prepared for the remainder of the Phase I Minimum Order Quantity
                      feed tanks.”




Page 7                                                                Details of Findings
                       In discussions with the ORP official responsible for managing this
                       incentive, the official acknowledged that this incentive had no
                       acceptance criteria to ensure that the products were of a quality
                       acceptable to the Department before the contractor could receive
                       the incentive fee. He said that the Department was obligated to
                       pay the incentive fee upon the contractor delivering reports and
                       executing a Notice of Completion document. He also
                       acknowledged that there had been some past quality problems with
                       the logic of certain of the contractor’s reports, which required the
                       contractor to make significant revisions before the reports were
                       acceptable.

                       In our view, the “criteria” cited by ORP officials for each of the
                       five PBCIs as descriptive of the quality of the plans/reports more
                       accurately described the required content of the products. The
                       “criteria” did not describe the basis to be used by the Department
                       for determining whether the contents of the plans/reports were of
                       acceptable quality.

                       We also discussed the lack of quality acceptance criteria with the
                       ORP official responsible for managing the ORP PBCI Program at
                       the time. He acknowledged at the time that improvements could
                       be made to the PBCIs process, such as developing quality criteria
                       to be used for accepting reports provided by the contractor.

                       In his May 11, 2001, comments to a draft of our report, the ORP
                       Manager acknowledged that “ . . . arguably some of the acceptance
                       criteria did not fully describe the necessary quality of the output
                       product.” He stated that such criteria would receive greater
                       emphasis in future PBCI development to ensure value received by
                       ORP for PBCI payments.

Required Information   We found that the PBCI basis documents for 14 of the 23 PBCIs
Not Included On PBCI   that we reviewed did not contain the required information that
Basis Documents        would provide the rationale for establishing the particular incentive
                       fee. The incentive fees associated with these PBCIs totaled almost
                       $10 million. ORP officials told us that early in the FY 2000 PBCI
                       fee development process, senior ORP officials directed lower-level
                       managers to complete a PBCI basis form for each candidate
                       incentive. The completed form could then be used to determine
                       which tasks to incentivize, as well as the proper incentive amount.

                       Requirements for the minimum content for the PBCI basis
                       document are established by Richland guidance, as well as by
                       “ORP DESK PROCEDURE - #3,” which mirrors the minimum
                       content requirements in the Richland guidance. The PBCI basis



Page 8                                                               Details of Findings
         document consists of six sections. According to the guidance,
         entries were required in the first five sections of the document as a
         basis for establishing the PBCI.

         Our review of the 14 PBCI basis documents disclosed that six of
         the 14 documents only had required entries in two of the five
         sections of the document. Specifically, there were no entries in
         Sections 3, 4, and 5 of the documents. The remaining eight
         documents had entries in three or more of the sections, but none of
         the 14 documents contained all the required entries. Details
         concerning the missing entries on each of the 14 PBCIs are at
         Appendix D.

         We discussed the lack of required information in the PBCI basis
         documents with the ORP official responsible for managing the
         ORP PBCI Program at the time. He said that, in his opinion, the
         omission of such information was an oversight. He said that the
         forms are well designed, the incentive fee justification is “excellent
         information,” and the forms should have been filled out.

         In the absence of information required by the PBCI basis
         documents, ORP management officials were not knowledgeable
         about specific aspects of certain PBCIs, such as the rationale for
         the amount of the incentive fee. For example, the ORP
         performance incentive fee allocation target set the minimum fee as
         “$250,000 and the Fee is less than or equal to 25% of the BCWS
         [budgeted cost of work scheduled].” Section 4 of the PBCI basis
         document requires a description of the rationale for the available
         incentive fee amount, including a comparison of available
         incentive fees relative to the corresponding BCWS. If the ratio of
         incentive fee to the BCWS is greater than 25 percent, a
         justification is required.

         We identified four PBCIs with incentive fees totaling $3.5 million
         that had a ratio greater than 25 percent. However, Section 4 of the
         PBCI basis documents for three of the four had no entries, while
         information in Section 4 of the basis document for the remaining
         PBCI was not complete. In discussions with ORP management
         officials, they acknowledged that they had not known that the fee
         allocation target of 25 percent had been exceeded for the four
         PBCIs.




Page 9                                                  Details of Findings
RECOMMENDATIONS   In view of the above, we recommend that the Manager, Office of
                  River Protection:

                  1. Ensure that, consistent with DOE Contract Reform Team
                     recommendations, future performance-based contract
                     incentives fees are offered to the contractor only for
                     performance of work that enhances critical path site
                     remediation efforts or that motivates the contractor to achieve
                     higher levels of performance.

                  2. Ensure that future performance-based contract incentives contain a
                     quality assurance standard for acceptance of work products such as
                     plans or reports prior to implementing the incentives.

                  3. Ensure that forms documenting the basis for future
                     performance-based contract incentives contain all information
                     required by internal ORP guidelines prior to the incentives
                     being approved by ORP officials.




Page 10                                                         Recommendations
MANAGEMENT   The ORP Manager generally concurred with our recommendations.
COMMENTS     In comments dated May 11, 2001, to a draft of our report, he
             described the following actions to be taken by ORP to implement
             our three recommendations:

             •   By May 31, 2001, reassign a member of the ORP contracting
                 staff half-time to have single point accountability of PBCI
                 process management to ensure that new incentives or changes
                 to current incentives have followed required internal review
                 and documentation processes, and that full validation and
                 compliance with acceptance criteria is documented prior to all
                 PBCI incentive payments.

             •   By June 30, 2001, consolidate current local fee development
                 and administration policy and procedures (e.g., ORP Desk
                 Procedure No. 3, RLP 540.1A, Performance-Based Contract
                 Incentives, and Appendix C, Tank Farm Contract Management
                 Plan) into one cohesive policy and procedure requirements
                 document.

             •   By July 31, 2001, and annually thereafter, perform a Self-
                 Assessment Review of FY 2001 through FY 2006 incentives to
                 ensure that all incentive documents are in place, each incentive
                 has a quality criterion for acceptance commensurate with the
                 characteristics of the incentive, and that payment for
                 performance is fully validated and documented in the file.

             The ORP Manager said that since the completion of our fieldwork,
             ORP has implemented positive management changes that have
             provided increased discipline and improved internal control
             processes in the development and administration of PBCIs.
             According to the ORP Manager, the process for FY 2001 PBCIs
             was substantially improved. He said, for example, that a total of
             16 new multi-year PBCIs covering FY 2001 through FY 2006 are
             now in place under the new M&O contract option. Also, he said
             that the performance-based incentives and other contract terms and
             conditions under this option exercise were developed to drive
             requirements-based contractor performance under a system of
             sound rigor and discipline. He said that the FY 2001 through FY
             2006 PBCIs reflect full compliance with Federal Acquisition
             Regulations and DOE Acquisition Regulation requirements, best
             practices, principles of Contract Reform, and local policies and
             procedures. He described staffing and organizational changes
             made by ORP and said that the Headquarters Office of
             Management and Administration had provided on-site training in
             the development of PBCIs.


Page 11                                              Management Comments
INSPECTOR   We believe the corrective actions described by the ORP Manager,
COMMENTS    when fully implemented, will be responsive to our
            recommendations.




Page 12                                               Inspector Comments
Appendix A
SCOPE AND     Our review was conducted during the period June 2000 to March
METHODOLOGY   2001. As part of our review, we interviewed officials in the
              Department of Energy (DOE) Office of River Protection (ORP)
              and the DOE Richland Operations Office (Richland) in Richland,
              Washington, and officials in the DOE Headquarters Office of
              Procurement and Assistance Management. We also interviewed
              ORP management and operating contractor officials, as well as
              officials with the State of Washington, Office of Ecology.

              We collected, reviewed, and analyzed extensive documentation on
              the ORP performance-based contract incentive (PBCI) program.
              These documents included mission and strategic plans, PBCI basis
              documents, Richland and ORP guidance, and documents related to
              the implementation of ORP PBCIs.

              The inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 13                                             Scope and Methodology
Appendix B
                   RELATED OFFICE OF INSPECTOR GENERAL AND
                     GENERAL ACCOUNTING OFFICE REVIEWS

Our review concerned contract reform by the Department of Energy in the area of performance
incentives. Prior Office of Inspector General and General Accounting Office reviews related to
this area include those listed below:

•   Incentive Fees for Bechtel Jacobs Company LLC, (DOE/IG-0503, May 2001). The Oak
    Ridge Operations Office had not established all of the contractor performance objectives
    prior to the start of the performance period nor had it required the contractor to meet all the
    performance objectives that had been established.

•   Performance Incentives at the Idaho National Engineering and Environmental Laboratory,
    (WR-B-00-05, April 2000). Performance incentives at the Laboratory had not been fully
    successful in improving performance and reducing costs and these problems resulted in the
    auditors questioning about $11.3 million in incentive fees paid to Lockheed Martin Idaho
    Technologies Company.

•   National Laboratories: DOE Needs to Assess the Impact of Using Performance-Based
    Contracts, (GAO/RCED-99-141, May 1999). The Department had not evaluated the impact
    of performance-based contracting on its laboratory contractors and, as a result, did not know
    if this new form of contracting was achieving the intended objectives of reducing costs and
    improving performance.

•   The Fiscal Year 1996 Performance Based Incentive Program at the Savannah River
    Operations Office, (INS-O-98-03, May 1998). The Savannah River Operations Office had
    certain incentive fee payments that appeared questionable.

•   Audit of the Contractor Incentive Program at the Nevada Operations Office, (DOE/IG-0412,
    October 1997). The Nevada Operations Office performance incentives were vague, could
    not be objectively validated, and were implemented after the performance period had been
    completed.

•   Audit of the Contractor Incentive Programs at the Rocky Flats Environmental Technology
    Site, (DOE/IG-0411, August 1997). The Department’s performance incentives at the Rocky
    Flats Environmental Technology Site did not always include clearly defined criteria, were
    not structured to encourage and reward superior performance, and were often process-
    oriented rather than results-oriented.




Page 14                                               Related OIG and General Accounting
                                                      Office Reviews
•   Inspection of the Performance Based Incentive Program at the Richland Operations Office,
    (DOE/IG-0401, March 1997). The Richland Operations Office paid excessive incentive fees;
    paid fees for work that was accomplished prior to the establishment of the incentive program;
    paid fees for work that was not completed; paid fees for work that was easily achieved by the
    contractor; and paid fees in an instance where quality and safety were compromised by the
    contractor in order to achieve an incentive fee.

In addition to the above reports, at the time of our inspection the OIG had ongoing audits dealing
with similar issues. The audit of “Use of Performance-Based Incentives at Selected
Departmental Sites” addressed whether the Department’s use of performance-based contracts has
resulted in improved contractor performance. The audit of “Available Fees for the Department’s
Management and Integrating Contractors” addressed whether management and integrating
contractor’s fees were commensurate with their risks and responsibilities.




Page 15                                             Related OIG and General Accounting
                                                    Office Reviews
Appendix C
          PERFORMANCE-BASED CONTRACT INCENTIVES LACKING
                QUALITY ACCEPTANCE REQUIREMENTS



          Performance                                               Incentive
            Incentive                    Title                      Amount

          1.1.2         Reduce Laboratory Turn-Around Time          $100,000

          2.1.1         Authorization Basis Mgmt. Process           $500,000

          3.3.1         Vault Stabilization                         $250,000

          3.5.1         Integrated Construction Project/            $300,000
                        Operations Plan

          4.3.2S        SST Waste Retrieval from Tank C-104         $335,000

          4.3.3S        Tank C-106 Operational Closure Status       $ 70,000




Page 16                                   Performance-Based Contract Incentives
                                          Lacking Quality Acceptance Requirements
Appendix D
        REQUIRED INFORMATION NOT ENTERED ON PERFORMANCE-BASED
                    CONTRACT INCENTIVE BASIS FORMS


Fourteen performance-based contract incentive (PBCI) basis documents did not have required
data entries in one or more of the following sections:

        - Section 3 - Describe the potential impacts to other incentivized or non-incentivized
                      operations.

        - Section 4 - Describe the rationale for the available incentive fee amount.

                      •   Subsection 4.a. - Compare available incentive fee, relative to
                          corresponding budgeted cost of work scheduled (BCWS) for PA scope.

                      •   Subsection 4.b. - Increased Performance Level.

                      •   Subsection 4.c. - Negative Incentive.

        - Section 5 - Compare incentive dates to baseline dates.


The following eight PBCI basis documents totaling over $6 million in incentive fees did not have
required data entered in some sections.

Incentive      Incentive Title                              Potential Fee Blank Section(s)*

1.1.1          Sampling Tanks                               $1,500,000            4&5
1.1.2          Reduce Lab Turnaround Time                   $ 100,000             4&5
2.1.1          Authorization Basis Mgmt. Process Imp.       $ 500,000^            3, 4 & 5
3.2.1          314 “A” Complex                              $1,250,000            3&4
3.2.3          Implementation of Field Optimizations        $ 400,000             4
3.5.1          Integrated Construction Project/
               Operations Plan                              $ 300,000             4
4.2.1          AZ-101 Process Test                          $ 750,000             4
4.5.1          Phase 1B-2 RTP                               $1,250,000            3&5



* Not all subsections of Section 4 were completed.
^ Fee was greater than 25 percent of BCWS.




Page 17                                         Required Information Not Entered on
                                                Performance-Based Contract Incentive
                                                Basis Forms
The following six PBCI basis documents totaling $3.9 million in incentive fees did not have
required data entered in Sections 3, 4, & 5.

Incentive             Incentive Title                        Potential Fee

2.1.2                 SY-101 Safety Mitigation                $2,500,000^
3.3.1                 Vault Stabilization                     $ 250,000^
3.3.4                 Drawing and Labeling                    $ 250,000^
3.4.1                 ENRAF Installations                     $ 150,000
3.8.1                 Waste Volume Management                 $ 250,000
4.1.1                 Vadose Zone                             $ 500,000



^ Fee was greater than 25 percent of BCWS.




Page 18                                         Required Information Not Entered on
                                                Performance-Based Contract Incentive
                                                Basis Forms
                                                                 IG Report No. DOE/IG-0506

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
